            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION



        SINGLE AUDIT OF THE
        STATE OF CALIFORNIA
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 2002

    November 2003   A-77-04-00003




  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                    SOCIAL SECURITY

MEMORANDUM
Date:   November 19, 2003                                                  Refer To:

To:     Candace Skurnik
        Director
        Audit Management and Liaison Staff

From: Assistant Inspector General
         for Audit

Subject: Management Advisory Report: Single Audit of the State of California for the Fiscal
        Year Ended June 30, 2002 (A-77-04-00003)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the State of California for the Fiscal Year ended June 30, 2002. Our objective
        was to report internal control weaknesses, noncompliance issues, and unallowable
        costs identified in the single audit to SSA for resolution action.

        The California State Auditor performed the audit. Results of the desk review conducted
        by the Department of Health and Human Services (HHS) concluded that the audit met
        Federal requirements. In reporting the results of the single audit, we relied entirely on
        the internal control and compliance work performed by the California State Auditor and
        the reviews performed by HHS.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The California Disability Determination Services (DDS) performs disability
        determinations under SSA’s DI and SSI programs in accordance with Federal
        regulations. The DDS is reimbursed for 100 percent of allowable costs. The
        Department of Social Services (DSS) is the California DDS’ parent agency.

        The single audit reported that DSS provided the Department of Finance (DoF) incorrect
        information on the California DDS’s cash draws, which could have resulted in an
        inaccurate calculation of the State’s interest liability to the Federal government. The
        corrective action plan indicated that Cash Management Improvement Act (CMIA)
Page 2 - Candace Skurnik

training was provided to staff and a new CMIA procedures manual was developed
(Attachment A, pages 1 and 2). We recommend that SSA ensure that the DSS has
procedures in place to accurately report the California DDS’s cash draw information to
the DoF.

The single audit also disclosed the following findings that may impact DDS operations,
although they were not specifically identified to SSA. I am bringing these matters to
your attention as they represent potentially serious service delivery and financial control
problems for the Agency.

•   Limitations in the automated accounting systems did not allow for the State to report
    expenditures by program on the Schedule of Expenditures of Federal Awards
    (Attachment B, pages 1 and 2).

•   Certifications were not obtained by the State to ensure that suspended or debarred
    parties were not contracted for Federal programs (Attachment B, pages 3 and 4).

Please send copies of the final Audit Clearance Document to Shannon Agee in
Kansas City and Rona Rustigian in Baltimore. If you have questions, contact
Shannon Agee at (816) 936-5590.




                                          S
                                          Steven L. Schaeffer

Attachments
Attachment A
  Page 1 of 2
Attachment A
  Page 2 of 2
Attachment B
  Page 1 of 4
Attachment B
  Page 2 of 4
Attachment B
  Page 3 of 4
Attachment B
  Page 4 of 4
                   Overview of the Office of the Inspector General

                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
